                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 1070~0004
                                                                                              Page 1 of 1
                                                                                                  !




         The National :hence Foundation, Office of Inspector General, conducted an investigation of an
         award' based on an anonymous allegation that a school district2had submitted false statements
         and false claims. Specifically, the allegation indicated that the district claimed more staff
         attended NSF fipnded conferences that was the case and that, in fact, an unspecified person had
         signed in for staff that did not attend a workshop but were subsequently paid for their attendance.
         The false claimb allegation related to the school district charging an unrelated workshop to an
         NSF award.
                          I
         We interviewed the NSF ~0~    who stated that NSF would have paid for the workshop as it
                        'I
         occurred because it contained units pertinent to the award. We were unable to corroborate any
         information that any person(s) falsely signed in for any other person(s) into the workshop.
                          I

         In conclusion, we were unable to substantiate the allegation of false statements or the false
                         'I
         claims. Accordingly, this case is closed.                                                 I

                          !




NSF OIG Form 2 (1 1/02)       1
